      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                       Washington, D.C. 20201




October 7, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Centers for Medicare & Medicaid Services’ Use of Medicare Fee-for-Service
               Error Rate Data To Identify and Focus on Error-Prone Providers (A-05-08-00080)



The attached final report provides the results of our review of the Centers for Medicare
& Medicaid Services’ use of Medicare fee-for-service error rate data to identify and focus on
error-prone providers.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Joseph J. Green, Assistant Inspector General for Financial Management
and Regional Operations, at (202) 619-1157 or through email at Joe.Green@oig.hhs.gov. We
look forward to receiving your final management decision within 6 months. Please refer to
report number A-05-08-00080 in all correspondence.


Attachment
 Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    CENTERS FOR MEDICARE
   & MEDICAID SERVICES’ USE
OF MEDICARE FEE-FOR-SERVICE
ERROR RATE DATA TO IDENTIFY
 AND FOCUS ON ERROR-PRONE
        PROVIDERS



                       Daniel R. Levinson
                        Inspector General

                         October 2010
                         A-05-08-00080
                    Office of Inspector General
                                    http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency,
and effectiveness of departmental programs. To promote impact, OEI reports also present
practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With investigators
working in all 50 States and the District of Columbia, OI utilizes its resources by actively
coordinating with the Department of Justice and other Federal, State, and local law enforcement
authorities. The investigative efforts of OI often lead to criminal convictions, administrative
sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The U.S. Department of Health & Human Services, Centers for Medicare & Medicaid Services
(CMS), administers the Medicare program. CMS contracts with payment contractors to process
and pay claims submitted by health care providers on behalf of Medicare beneficiaries. CMS
also contracts with quality improvement organizations, recovery audit contractors (RAC), and
program safeguard contractors (PSC) to, among other things, safeguard the Medicare program
from improper payments.

In fiscal year (FY) 2008, Medicare benefit payments totaled about $445 billion, including
$310 billion in fee-for-service (FFS) payments. Medicare payments are projected to more than
double to $914 billion by 2018. The Office of Inspector General has identified the integrity of
Medicare payments as one of the top management challenges facing the Department.

The Improper Payments Information Act of 2002, P.L. No. 107-300, requires the head of a
Federal agency with any program or activity that may be susceptible to significant improper
payments to report to Congress the agency’s estimate of improper payments. In addition, for any
program or activity with estimated improper payments exceeding $10 million, the agency must
report to Congress the actions that the agency is taking to reduce those payments.

During our 4-year audit period (FYs 2005 through 2008), CMS used two programs to estimate
improper Medicare FFS payments: the Hospital Payment Monitoring Program (HPMP) and the
Comprehensive Error Rate Testing (CERT) program. When aggregated, the programs produced
an overall improper payment estimate and a paid claim error rate. The reported estimates of
improper Medicare FFS payments decreased from $23.8 billion (a 14.2-percent error rate) in
FY 1996, the first year that an error rate was developed, to $10.4 billion (a 3.6-percent error rate)
in FY 2008. We refer to providers that had at least one error in each of the 4 years of our audit
period as “error-prone providers.”

OBJECTIVE

Our objective was to determine whether CMS and its contractors used historical HPMP and
CERT error rate data to identify and focus on error-prone providers.

SUMMARY OF RESULTS

CMS and its contractors did not use historical HPMP and CERT error rate data to identify and
focus on error-prone providers. Although payment contractors developed corrective actions
based on the HPMP and CERT error rate data, they typically did not focus on error-prone
providers for review and corrective action.

Using the reported error rate data for FYs 2005 through 2008, we identified 740 error-prone
providers. Specifically, an analysis of the HPMP error rate data disclosed that 554 providers




                                                  i
(21 percent of all HPMP providers with at least 1 claim sampled in each of the 4 years)
accounted for 59 percent of the dollars in error for those providers. A similar analysis of the
CERT error rate data for the same period disclosed that 186 providers (1.81 percent of all CERT
providers with at least 1 claim sampled in each of the 4 years) accounted for 25 percent of the
dollars in error for those providers. Focusing on error-prone providers for corrective action and
repayment of improper payments could improve the effectiveness of CMS’s efforts to reduce
improper payments.

RECOMMENDATIONS

We recommend that CMS:

   •   use available error rate data to identify error-prone providers;

   •   require error-prone providers to identify the root causes of claim errors and to develop
       and implement corrective action plans;

   •   monitor provider-specific corrective action plans; and

   •   share error rate data with its contractors (QIOs, RACs, and PSCs) to assist in identifying
       improper payments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations but pointed
out that it had used error rate data to target providers during the audit period. Additionally, CMS
stated that its goal is to reduce improper payments by 50 percent by 2012 and that our
recommendations will help achieve that goal.

CMS’s comments are included in their entirety as Appendix B.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.........................................................................................................................1

          BACKGROUND ............................................................................................................... 1
              Medicare Program .................................................................................................. 1
              Estimating Improper Medicare Payments .............................................................. 1
              Reported Estimates of Improper Payments............................................................ 2
              Medicare Contractors ............................................................................................. 2
              Medicare Integrity Challenge ................................................................................ 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 4
               Objective ................................................................................................................ 4
               Scope ...................................................................................................................... 4
               Methodology .......................................................................................................... 4

RESULTS OF REVIEW ............................................................................................................. 5

          PROVIDERS NOT TARGETED FOR REVIEW ............................................................. 5
               Centers for Medicare & Medicaid Services’ Current Practices ............................. 5
               Analyses of Data on Error-Prone Providers........................................................... 5
               Most Errors Caused by Providers .......................................................................... 7

          CONCLUSION .................................................................................................................. 8

          RECOMMENDATIONS ................................................................................................... 8

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ...................... 8

APPENDIXES

          A: FISCAL YEAR 2009 COMPREHENSIVE ERROR RATE TESTING PROGRAM
               CHANGES

          B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                     iii
                                                INTRODUCTION

BACKGROUND

Medicare Program

The U.S. Department of Health & Human Services, Centers for Medicare & Medicaid Services
(CMS), administers the Medicare program. In fiscal year (FY) 2008, CMS made Medicare
payments totaling about $445 billion, including $310 billion in fee-for-service (FFS) payments,
on behalf of approximately 45 million Medicare beneficiaries. The 2009 Annual Report of the
Boards of Trustees of the Federal Hospital Insurance and Federal Supplementary Medical
Insurance Trust Funds projects that by 2018, Medicare payments will more than double to
$914 billion and the number of beneficiaries will increase to about 59 million.

Estimating Improper Medicare Payments

The Improper Payments Information Act of 2002 (the Act), P.L. No. 107-300, requires the head
of a Federal agency with any program or activity that may be susceptible to significant improper
payments to report to Congress the agency’s estimate of improper payments. In addition, for any
program or activity with estimated improper payments exceeding $10 million, the agency must
report to Congress the actions that the agency is taking to reduce those payments.

For FYs 1996 through 2002, prior to the Act, the Office of Inspector General (OIG) estimated
and reported improper Medicare FFS payments and national error rates. In November 2003,
CMS assumed this responsibility and OIG began providing oversight of the error rate process. 1
During our 4-year audit period (FYs 2005 through 2008), CMS used two programs to estimate
improper Medicare FFS payments: the Hospital Payment Monitoring Program (HPMP) and the
Comprehensive Error Rate Testing (CERT) program. When aggregated, the programs produced
an overall improper payment estimate and a paid claim error rate.

      •    Under the HPMP, CMS contracted with quality improvement organizations (QIO) 2 to test
           an annual sample of paid claims to determine an improper payment estimate for inpatient
           acute-care hospital claims. An HPMP error was a claim that did not meet Medicare
           payment rules. Payments to inpatient acute-care hospitals accounted for approximately
           40 percent of the total FFS payments during our audit period.

      •    Under the CERT program, CMS contracted with AdvanceMed, a program safeguard
           contractor (PSC), to test an annual sample of paid claims to determine an improper
           payment estimate for all claims other than inpatient acute-care hospital claims. A CERT
           error was a line of service on a claim that did not meet Medicare payment rules.
           Payments to providers other than inpatient acute-care hospitals and to suppliers of


1
 Recent OIG reports related to the error rate process include A-01-07-00508, issued August 22, 2008;
A-01-09-00500, issued May 12, 2009; and A-01-09-00511, issued September 29, 2009.
2
    As of April 1, 2008, the QIOs’ responsibility for the HPMP was transferred to the CERT contractors.


                                                           1
           medical equipment 3 accounted for approximately 60 percent of the total FFS payments
           during our audit period.

Each year CMS samples a large number of paid claims. For FY 2008, for example, the HPMP
sample contained 39,841 claims and the CERT sample contained 123,746 claims.

Reported Estimates of Improper Payments

The reported estimates of improper Medicare FFS payments decreased from $23.8 billion (a
14.2-percent error rate) in FY 1996 to $10.4 billion (a 3.6-percent error rate) in FY 2008, as
shown in Table 1.

           Table 1: Reported Estimates of Improper Payments and Error Rates

                                          Improper Payments
                                FY                                        Error Rate
                                             in Billions 4
                               1996             $23.8                        14.2%
                               1997              20.9                        11.8%
                               1998              14.9                         8.4%
                               1999              14.5                         8.6%
                               2000              16.4                         9.4%
                               2001              16.8                         8.8%
                               2002              17.1                         8.0%
                               2003              12.7                         6.4%
                               2004              21.7                        10.1%
                               2005              12.1                         5.2%
                               2006              10.8                         4.4%
                               2007              10.8                         3.9%
                               2008              10.4                         3.6%

As a result, at least in part, of changes in the CERT medical review process, the estimate of
improper Medicare FFS payments increased to $24.1 billion (a 7.8-percent error rate) in
FY 2009. (See the Appendix for more information on the FY 2009 CERT program changes.)

Medicare Contractors

Payment Contractors

CMS’s payment contractors process and pay claims submitted by health care providers on behalf
of Medicare beneficiaries. The Medicare Prescription Drug, Improvement, and Modernization
Act of 2003, P.L. No. 108-173, established Medicare administrative contractors (MAC) as

3
    This report refers to providers and suppliers of medical equipment as “providers.”
4
 The reported estimates of improper payments represent the absolute value of overpayments plus the absolute value
of underpayments.


                                                            2
payment contractors. Until 2012, when the transition to MACs is required to be completed,
CMS’s payment contractors also include carriers, durable medical equipment regional carriers,
and fiscal intermediaries.

Claims processed and paid by payment contractors contain minimal information, such as
provider identification numbers and codes identifying the types of services provided to Medicare
beneficiaries. Beneficiaries’ medical records, which are maintained at the provider level, usually
do not accompany the claims submitted to payment contractors.

Quality Improvement Organizations

Pursuant to section 1862(g) of the Social Security Act, CMS contracts with a QIO in each State
“for the purposes of promoting the effective, efficient, and economical delivery of health care
services, and of promoting the quality of services ….” QIOs review medical care, help
beneficiaries with complaints about the quality of care, implement improvements in the quality
of care, conduct quality-of-care reviews of providers referred by CMS, and refer potential cases
of fraud or abuse to payment contractors for recovery or followup action.

Recovery Audit Contractors

Pursuant to section 302 of the Tax Relief and Health Care Act of 2006, which added section
1893(h) to the Social Security Act, CMS contracts with recovery audit contractors (RAC) to
identify improper Medicare payments. RACs recommend that payment contractors recover the
identified overpayments and collect, usually on a contingency fee basis, an amount based on the
amount of the overpayments. Using CMS data sources, RACs develop their own proprietary
databases to identify and analyze provider billing patterns warranting further examination.

Program Safeguard Contractors

The Health Insurance Portability and Accountability Act of 1996 added section 1893 to the
Social Security Act to authorize CMS to contract with PSCs to promote the integrity of the
Medicare program. PSCs identify and investigate cases of suspected fraud and take actions such
as denying claims, suspending providers, and referring providers to payment contractors for
recoupment of payment or to OIG for possible administrative and/or criminal prosecution. PSCs
also profile aberrant providers based on leads received from various sources and trends
developed through data analyses. In 2008, CMS began reassigning PSCs’ responsibilities and
jurisdictions to zone program integrity contractors.

Medicare Integrity Challenge

OIG has identified the integrity of Medicare payments as one of the top management challenges
facing the Department. OIG’s efforts in addressing this challenge are aimed at identifying and
recommending methods to minimize inappropriate payments; holding providers accountable for
fraud, waste, and abuse within the program; identifying ways to close exploited loopholes; and
examining payment and pricing methods to ensure that Medicare, its beneficiaries, and taxpayers
realize value for program expenditures.



                                                3
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CMS and its contractors used historical HPMP and
CERT error rate data to identify and focus on error-prone providers. 5

Scope

We reviewed CMS’s nationwide error rate data for FYs 2005 through 2008. Based on those
data, CMS estimated that improper Medicare FFS payments totaled $44.1 billion for the 4-year
period.

We limited our review of internal controls to obtaining an understanding of the HPMP, the
CERT program, and CMS’s oversight activities. We did not validate the HPMP and CERT data
or the medical review decisions made on sampled claims.

We performed our fieldwork at CMS in Baltimore, Maryland, and at various CMS contractor
locations.

Methodology

To accomplish our objective, we:

    •    reviewed Federal requirements for estimating and reporting improper Medicare FFS
         payments;

    •    reviewed HPMP and CERT program policies and procedures;

    •    interviewed CMS officials in the HPMP and the CERT program;

    •    interviewed officials at CMS’s contractors, including payment contractors, QIOs, RACs,
         and PSCs;

    •    reviewed and analyzed error rate data from the HPMP and the CERT program 6 for
         FYs 2005 through 2008 to identify error-prone providers;

    •    reviewed contractually required QIO activities related to the HPMP; and

    •    reviewed CMS’s and the payment contractors’ annual Error Rate Reduction Plans.


5
 We defined an error-prone provider as a provider that had at least one error in each of the 4 years of our audit
period.
6
 Our analysis excluded (1) zero-dollar errors in both the HPMP and the CERT program and (2) claims that
contained coding errors in the CERT program (because of their low dollar value).


                                                          4
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                          RESULTS OF REVIEW

CMS and its contractors did not use historical HPMP and CERT error rate data to identify and
focus on error-prone providers. Although payment contractors developed corrective actions
based on the HPMP and CERT error rate data, they typically did not focus on error-prone
providers for review and corrective action.

Using the reported error rate data for FYs 2005 through 2008, we identified 740 error-prone
providers. Specifically, an analysis of the HPMP error rate data disclosed that 554 providers
(21 percent of all HPMP providers with at least 1 claim sampled in each of the 4 years)
accounted for 59 percent of the dollars in error for those providers. 7 A similar analysis of the
CERT error rate data for the same period disclosed that 186 providers (1.81 percent of all CERT
providers with at least 1 claim sampled in each of the 4 years) accounted for 25 percent of the
dollars in error for those providers. Focusing on error-prone providers for corrective action and
repayment of improper payments could improve the effectiveness of CMS’s efforts to reduce
improper payments.

PROVIDERS NOT TARGETED FOR REVIEW

Centers for Medicare & Medicaid Services’ Current Practices

CMS and its contractors did not use historical HPMP and CERT error rate data to identify and
focus on error-prone providers. Although payment contractors developed corrective actions
based on the HPMP and CERT error rate data, they typically did not focus on error-prone
providers for review and corrective action. Furthermore, the RACs and PSCs did not focus on
providers based on the HPMP and CERT error rate data because CMS did not share the error rate
data with these types of contractors. In its “long reports,” CMS typically reported improper
payments and associated error rates by type of contractor, specific contractor, type of service,
and type of provider.

Analyses of Data on Error-Prone Providers

Hospital Payment Monitoring Program Providers

HPMP data for the 3,851 providers whose claims were sampled for FY 2005, 2006, 2007, or
2008 showed that 2,673 providers had at least 1 claim sampled in each of the 4 years. Of the
2,673 providers, 554 (21 percent of all HPMP providers with at least 1 claim sampled in each of
the 4 years) had at least 1 error in each of the 4 years. The 554 providers accounted for

7
 After issuing our draft report, we revised certain numbers related to the HPMP to correct errors caused by a
software conversion problem.


                                                         5
59 percent of the dollars in error for providers sampled by the HPMP in each of the 4 years, as
shown in Table 2.

                      Table 2: Analysis of HPMP Error-Prone Providers

                                                                    Dollar Amount
                                                    Number of         of HPMP
                                                    Providers           Errors
            Error-prone providers                      554           $30,754,846
            Providers with claims sampled for
                                                       2,673          $52,211,586
             FYs 2005, 2006, 2007, and 2008
            Percentage for error-prone providers        21%               59%

Table 3 presents details on 10 of the 554 HPMP error-prone providers. These 10 providers had a
high amount and a high percentage of sampled dollars in error for our 4-year audit period.

                    Table 3: Examples of HPMP Error-Prone Providers

                                        FYs 2004–2008
                                      Dollar                     Percentage
                                    Amount of                    of Dollars
                                     Sampled        Dollars in       in
                     Provider         Claims         Error         Error
                         1           $2,018,105      $258,803       12.82%
                         2            2,088,445       214,892       10.29%
                         3            1,194,210       164,489       13.77%
                         4            1,623,167       162,893       10.04%
                         5            1,263,001       148,793       11.78%
                         6            1,060,528       131,472       12.40%
                         7              779,881       110,217       14.13%
                         8              446,775         92,135      20.62%
                         9              288,304         91,830      31.85%
                        10              614,871         91,703      14.91%

Comprehensive Error Rate Testing Program Providers

CERT data for the 134,273 providers whose claims were sampled for FY 2005, 2006, 2007, or
2008 showed that 10,296 providers had at least 1 claim sampled in each of the 4 years. Of the
10,296 providers, 186 (1.81 percent of all CERT providers with at least 1 claim sampled in each
of the 4 years) were error-prone providers. The 186 providers accounted for 25 percent of the
total dollars in error for providers sampled by the CERT program in each of the 4 years, as
shown in Table 4 on the following page.




                                                6
                  Table 4: Analysis of CERT Program Error-Prone Providers

                                                                              Dollar Amount
                                                              Number of         of CERT
                                                              Providers           Errors
              Error-prone providers                               186             $333,048
              Providers with claims sampled for
                                                                10,296           $1,329,335
               FYs 2005, 2006, 2007, and 2008
              Percentage for error-prone providers               1.81%              25%

Table 5 presents details on 10 of the 186 CERT program error-prone providers. These 10
providers had a high amount and a high percentage of sampled dollars in error for our 4-year
audit period.

                 Table 5: Examples of CERT Program Error-Prone Providers


                                            FYs 2004–2008
                                          Dollar               Percentage
                                        Amount of              of Dollars
                                         Sampled    Dollars in     in
                          Provider        Lines      Error       Error
                              1            $95,801    $23,260     24.28%
                              2             62,890      10,501    16.70%
                              3             83,697       9,777    11.68%
                              4             37,107       4,505    12.14%
                              5             22,778       3,932    17.26%
                              6             12,701       3,494    27.51%
                              7             19,296       3,284    17.02%
                              8              6,914       2,696    38.99%
                              9             12,149       2,540    20.90%
                             10             12,629       2,459    19.47%

Most Errors Caused by Providers

Provider actions caused most of the $44.1 billion in improper payments that CMS reported for
FYs 2005 through 2008. CMS reported four categories of errors: incorrect coding, medically
unnecessary services, documentation errors, 8 and other errors. Individual providers are
responsible for ensuring that their claims are properly coded and that the care provided is
medically necessary and adequately documented.



8
 Under the HPMP, CMS included all documentation errors in the “no documentation” category. Under the CERT
program, CMS used two subcategories of documentation errors (no documentation and insufficient documentation).
For our analysis, we included all documentation errors in one category.


                                                      7
CONCLUSION

CMS did not use historical error rate data to identify and focus on error-prone providers for
review and corrective action. Using the reported error rate data from the HPMP and the CERT
program for FYs 2005 through 2008, we identified 740 error-prone providers. These providers
accounted for a significant portion of the total dollars in error in the sampled years. Focusing on
error-prone providers for corrective action and repayment of improper payments could reduce
improper payments.

RECOMMENDATIONS

We recommend that CMS:

   •   use available error rate data to identify error-prone providers;

   •   require error-prone providers to identify the root causes of claim errors and to develop
       and implement corrective action plans;

   •   monitor provider-specific corrective action plans; and

   •   share error rate data with its contractors (QIOs, RACs, and PSCs) to assist in identifying
       improper payments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations but pointed
out that it had used error rate data to target providers during the audit period. Additionally, CMS
stated that its goal is to reduce improper payments by 50 percent by 2012 and that our
recommendations will help achieve that goal.

CMS’s comments are included in their entirety as Appendix B.




                                                 8
APPENDIXES
        APPENDIX A: FISCAL YEAR 2009 COMPREHENSIVE ERROR RATE
                       TESTING PROGRAM CHANGES

For fiscal year (FY) 2009, the Centers for Medicare & Medicaid Services (CMS) implemented
changes in its Comprehensive Error Rate Testing (CERT) program. Page III-13, note 1, of the
U.S. Department of Health & Human Services (HHS) FY 2009 Agency Financial Report
explained these changes as follows:

       This report shows that 7.8 percent of the dollars paid nationally did not comply
       with one or more Medicare coverage, coding, billing, and payment rules. The
       improper payment amount for the Medicare FFS [fee-for-service] program for
       fiscal year 2009 is projected as $24.1 B. Based on both the recommendations
       contained in recent OIG [Office of Inspector General] audit reports and those of
       CMS’ advisory medical staff, HHS modified the medical review process for the
       November 2009 improper payments report. HHS implemented three separate
       revisions to the CERT review criteria based on these recommendations. Due to
       these modifications, the CERT contractor was not able to meet the original goal of
       120,000 reviewed claims. Approximately 99,500 claims completed the review
       process. Of that number, approximately 19,000 claims were reviewed using the
       most stringent criteria. The national paid claims error rate for those claims
       reviewed under the strictest criteria, when applied to the entire year, is
       12.4 percent or $35.4 billion (this amount was derived from statistical calculations
       based on the sub-sample reviewed). However, HHS consulted with the OIG
       concerning the limited time period covered by these claims, and determined that
       reporting the error rate for this subset of claims only, would not be in compliance
       with Improper Payment Information Act requirements.
                                                                                                            Page 1 of3


APPENDIX B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS


         DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


                                                                                  Administrator
                                               'lela AUG 27 ~"I10: 17             Washington, DC 20201




      DATE:           AUG 2 5 2010

      TO: 	          Daniel R. Levinson 

                     Inspector General                                  f\ _ '7)       

      FROM: 	        DonaldM .Berwick, M.6"            ~~ {~~
                     Administrator     "c:::::==:::::~:::::::;.
                                                           ....... 

      SUBJECT: 	 Office oflnspector General (O/G) Draft Report "CMS ' Use of Medicare Fee-for­
                     Serv ice Error Rate Data to Id entify and Focus on Error-Prone Providers"
                     (A-05-0S-000S0)

      Thank you for the opportunity to comment on the subject O/G draft report regarding the analys is
      of error-prone providers identified through the Comprehensive Error Rate Testing (CERT)
      program data. We appreciate the o/G's review of the CERT error rate data. CMS developed the
      CERT program to produce a national paid claims error rate for the Medicare fee -for-service
      (FFS) program and to comply with Improper Pay ment Elimination and Recovery Act (IPERA)
      of2010 requirements.

      Prior to 2009, the Medicare FFS improper payment estimate was derived from two programs:
      the CERT program and the Hospital Payment Monitoring Program (HPMP). Beginning with
      claims sampled for the FY 2009 report, the CERT program commenced sampling and reviewing
      the in-patient hospital claims previously reviewed under the HPMP.

      This O/G report spans years 2005-200S and, during that time, CMS targeted error-prone
      providers through the HPMP and CERT programs. For example, under the S'" Scope of Work,
      each Quality Improvement Organization (QIO) was requ ired to conduct a special proj ect which
      targeted specific providers in a specific payment error rate area. These projects included
      interventions with individual providers, the monitoring of the results of these interventions, and
      feedback to the participating providers. In addition, CMS shared error rate data with its
      contractors in several ways. For example, CMS shared with the QIOs the results of all of their
      case reviews for HPMP cases. CMS also provided payment error cause.analyses, which included
      the number of claims with dollars in error by provider number, annually to each QIO for cases
      sampled for calculating the error rate. Lastly, in the CERT program, the CMS shared all error
      rate data for each claim reviewed with the Medicare Administrator Contractors to use in planning
      provider education efforts.


      The CMS appreciates the efforts and recommendations provided by the O/G - and has used tlle
      recommendations to improve the CERT process. Based on these recommendations, CMS has
      taken aggressive actions to reflect a more complete accounting of Medicare's improper payments
                                                                                                    Page 2 of3



Page 2 - Daniel R. Levinson


and provide the Agency and 010 with more complete information about errors so the Agency
can better target improper payments.

An integral part of the CERT process is the analysis of error rate data and development of error
rate reduction plans to reduce improper payments and maintain the fiscal integrity of the
Medicare program. OIG's additional analysis demonstrates the utility of using CERT findings to
identifY the providers that repeatedl y make billing errors allowing the agency to focus on
improper payment reduction efforts as it moves forward.

The CMS goal is to reduce improper payments by 50 percent by 20 12 and recommendations and
support such as those provided in this report will help CMS achieve that goal.

We appreciate OIG's work in th is area and look forward to working with them as we continue to
enhance the CERT process. Our responses to OIG's recommendations are below.

010 Recommendation

The 010 recommends that CMS should use available error rate data to identify error-prone
providers.

CMS Response

The CMS agrees that historical error rate data is a valuable tool for identifying providers that
repeatedly make the same types of billing errors. CMS will conduct analysis of historical error
rate data similar to the 010 analysis beginning with FY 2009 data and share the findings with the
appropriate contractors to assist in developing corrective actions.

010 Recommendations

The 0 10 recommends that CMS should require error-prone providers to identifY the root causes
of claim errors and to develop and implement corrective action plans.

The 0 10 recommends that CMS should monitor provider-specific corrective action plans.

CMS Response

The CMS concurs that eliminating errors made by error-prone providers wi ll help reduce the
national paid claims error rate. There currently is no mechanism for requiring providers to
develop corrective action plans. CMS will work with our Office ofOeneral Counsel to
determine whether we have the statutory authority to implement such a process. There are other
admi nistrative actions that can be taken, such as probe reviews and individualized education for
providers that prove to be problematic. CMS wi ll direct its contractors to initiate appropriate
administrative actions for providers determined to be error prone.
                                                                                                       Page 3 of3



Page 3 - Daniel R. Levinson


OIG Recommendation

The 01G recommends that CMS should share error rate data with its contractors (QIOs, RACs,
and PSCs) to assist in identifying improper payments.

eMS Response

The CMS concurs. CMS will share the findings of this audit with the contractors responsible for
ensuring proper Medicare FFS payments. In order to do so, we will need the data gathered by
your of!Jce in a fannat that ensures each contractor will only receive findings for providers in its
jurisdiction. We look forward to working with the OIG on this initiative.
